                   February 29, 2000

                   DAVID L. SOLOMON
                   VICE PRESIDENT, NEW YORK METRO AREA
                    OPERATIONS

                   SUBJECT: Allegations of a Hostile Work Environment in a
                            New York Metro Area Post Office
                            (Report Number LM-LA-00-002)

                   This is our advisory report on allegations of a hostile work
                   environment at the Arecibo, Puerto Rico, Post Office.

                   Representative John M. McHugh, Chairman of the
                   Subcommittee on the Postal Service, requested that the
                   Office of Inspector General (OIG) conduct this review
                   (Project Number 00ER037LM000). We were asked to
                   review several concerns involving a potential for violence in
                   the workplace, including an incident where an employee
                   allegedly threatened to strike an acting supervisor, and
                   another incident in which the postmaster allegedly
                   physically struck an employee and verbally abused other
                   employees.

Results in Brief   We found evidence that a hostile work environment existed,
                   but that postal management has improved the environment
                   over the last two years.

                   The Postal Inspection Service investigated the incident
                   concerning the employee who, in 1997 allegedly threatened
                   the supervisor and found that a threat had indeed been
                   made. Postal management suspended the employee and
                   he was later moved to another post office.

                   In the case of the postmaster, management found that in
                   1997 the postmaster struck an employee, pushed an
                   employee, and created a hostile work environment for other
                   employees. As a result, postal management disciplined the
                   postmaster and a management consultant met with the
                   postmaster and employees on several occasions in an effort
                   to improve workplace conditions.




                            Restricted Information
Allegations of a Hostile Work Environment                                          LM-LA-00-002
 in a New York Metro Area Post Office


                              We believe that district management took appropriate action
                              to resolve the issues and was successful in improving the
                              workplace climate. Management is continuing to work on
                              unresolved issues at the post office, however there no
                              longer appears to be a hostile work environment in Arecibo,
                              as evidenced in a climate survey, which was conducted in
                              December 1999. We discussed the contents of this report
                              with management, who elected not to provide written
                              comments.

Objectives, Scope,            In letters dated January 12, 1998, February 20,1998,
and Methodology               July 22, 1998, and April 16, 1999, Representative John M.
                              McHugh requested that the OIG conduct an inquiry into
                              allegations made by Postal Service employees, as well as
                              by the daughter of an employee, that a hostile work
                              environment existed at the Arecibo Post Office.

                              The OIG normally does not review individual labor-
                              management disputes, particularly when other formal
                              avenues of resolution exist, including contractual grievance-
                              arbitration procedures and the Equal Employment
                              Opportunity process. However, we do undertake such
                              reviews when the allegations pertain to violence in the
                              workplace.

                              Our objectives were to determine whether: (1) an employee
                              threatened a supervisor; (2) the postmaster struck an
                              employee and verbally abused other employees; and
                              (3) district management responded to the incidents in
                              accordance with established policies and procedures.

                              We reviewed documents provided by Representative
                              McHugh, by the area manager of Human Resources, the
                              Postal Inspection Service, and by an outside management
                              consultant who was brought in to examine the post office’s
                              workplace climate. The documents provided to us included
                              the consultant’s notes and climate assessments, the
                              Inspection Service’s investigative report on the alleged
                              verbal threat to a supervisor, and an arbitrator’s decision in
                              that case. In addition, we interviewed the area manager of
                              Human Resources.

                              We also reviewed the Postal Service Joint Statement on
                              Violence and Behavior in the Workplace and the Threat
                              Assessment Team Guide, Publication 108.



                                                       2
                                            Restricted Information
Allegations of a Hostile Work Environment                                        LM-LA-00-002
 in a New York Metro Area Post Office



                              This review was conducted from March 1999 through
                              February 2000, in accordance with the President’s Council
                              on Integrity and Efficiency, Quality Standards for
                              Inspections.

Observations                  We found evidence that an employee threatened an acting
                              supervisor and that the postmaster physically struck one
                              employee, pushed the employee, and verbally abused other
                              employees. Both the employee and the postmaster were
                              disciplined for these actions. In addition, district
                              management responded to the incidents appropriately and
                              followed the “zero tolerance policy” regarding violence and
                              inappropriate behavior in the workplace.

Allegations of the            As early as 1996 postal management engaged an outside
Potential for Violence        consultant to assess the workplace situation in the Arecibo,
and of Abusive                Puerto Rico, Post Office. Employees alleged that an
Management at the             employee threatened a supervisor with harm, and the
Arecibo Post Office           postmaster had physically and verbally threatened
                              employees. In addition, employees alleged that the
                              postmaster had not been disciplined for her actions.

                              Documents disclosed that since 1996, district management
                              has attempted to improve the working relationship between
                              employees and the Arecibo Postmaster. In addition, one of
                              the employees who complained about the postmaster,
                              alleging that the postmaster used threatening language,
                              was himself suspended for physically threatening an acting
                              supervisor. This employee was subsequently reassigned to
                              another post office.

                              A February 26, 1998, Inspection Service memo states that
                              since July 1997 inspectors provided attention to allegations
                              about the intimidating management style of the Arecibo
                              postmaster, as well as the employees’ perception that
                              nothing was being done to discipline the postmaster. The
                              Inspection Service report stated that the postmaster was
                              accused of striking an employee, and afterward the
                              postmaster was issued a letter of warning in lieu of a 14-day
                              suspension. District management stated that, in addition,
                              the postmaster was removed from her position for six
                              months.




                                                       3
                                            Restricted Information
Allegations of a Hostile Work Environment                                                        LM-LA-00-002
 in a New York Metro Area Post Office



                                District management sent an organizational development
                                consultant and an Employee Assistance Program
                                coordinator from another district to the post office during the
                                week of August 31, 1998. A climate survey was conducted
                                on-site during that week. In addition, employee interviews
                                were conducted on-site during the first week in
                                December 1998. The results of the survey and interviews
                                disclosed an improved work site; however, more
                                management improvements were needed in the areas of
                                interpersonal skills and performance management training.
                                Employees did not volunteer to participate in opportunities
                                to engage in conflict resolution, which were conducted by a
                                consultant.

                                On December 7, 1999, a climate assessment team was
                                sent to the Arecibo Post Office. In the team’s summary of
                                recommendations, there is no mention of threats of violence
                                or a hostile work environment. However, the report
                                disclosed that there was a perception that management
                                employees at the post office still lacked interpersonal skills.1

Postal Service                  The Joint Statement on Violence and Behavior in the
Response to Alleged             Workplace states that the Postal Service will not tolerate
Threats                         violence, or any threats of violence, by anyone at any level
                                of the Postal Service. In addition, the Threat Assessment
                                Team Guide, Publication 108, requires that when an
                                incident occurs, notification be made to the Human
                                Resources manager, the Postal Inspection Service, the
                                senior Labor Relations specialist, the employee and
                                workplace intervention analyst, medical director, district
                                manager, or lead plant manager. The guide further
                                provides that the Human Resources manager or designee
                                will determine whether a meeting needs to be called or
                                whether the situation may be addressed through other
                                threat assessment team members or ad hoc resources.

                                District management responded to the incidents at the
                                Arecibo Post Office in accordance with the zero tolerance
                                policy regarding violence and inappropriate behavior in the
                                workplace. The Caribbean Threat Assessment Team
                                monitored the situation after the employee threatened the
                                                                                                  2

1
  One of the team members stated that in another district, under similar circumstances, an action plan for
improvements would be required and a follow-up assessment would be completed in approximately six to eight
months to determine if employee perceptions had improved.



                                                       4
                                            Restricted Information
Allegations of a Hostile Work Environment                                                            LM-LA-00-002
 in a New York Metro Area Post Office


                                    acting supervisor, and the employee was relocated.2
                                    District management required that the postmaster attend
                                    training; disciplined the postmaster with a suspension; and
                                    continues to periodically meet with the postmaster and
                                    employees in a continuing effort to ameliorate the situation.

                                    In addition, climate assessments were conducted and an
                                    outside threat assessment team was brought into the post
                                    office.

                                    Based on the documents we reviewed, New York Metro
                                    Area district management has continued to oversee the
                                    workplace climate at the Arecibo Post Office and appears
                                    committed to continuing the improvement of this post
                                    office’s employee-management relations.

Management’s                        We discussed the contents of this report with management,
Comments                            and they elected not to provide written comments.

                                    We plan no further work on these allegations. We
                                    appreciate the cooperation and courtesies provided by your
                                    staff during this review. If you have any questions, please
                                    contact me at (703) 248-2300.


                                    //Signed//
                                    Billy Sauls
                                    Assistant Inspector General
                                      for Employee

                                    cc: 	 Clarence E. Lewis, Jr.
                                          Patrick R. Donahoe
                                          Anthony J. Vegliante
                                          Yvonne D. Maguire




2
    An arbitrator determined that this employee cannot ever again work at the Arecibo Post Office.




                                                           5
                                                Restricted Information
Allegations of a Hostile Work Environment                            LM-LA-00-002
 in a New York Metro Area Post Office


 Major Contributors to
 This Report




                                                       6
                                            Restricted Information
Allegations of a Hostile Work Environment                                             LM-LA-00-002
 in a New York Metro Area Post Office



                                          Report Synopsis
                                           GENERAL INFORMATION

REPORT NUMBER:                          LM-LA-001              REPORT DATE:

                            Allegation of a of a Hostile Work Environment Caused by
REPORT TITLE:                            Postmaster in Puerto Rico




EVALUATOR-IN-CHARGE:                        Joyce Hansen            DIRECTOR:   Joyce Hansen

                                           FINDINGS/OBSERVATION

NUMBER OF FINDING/OBSERVATIONS:                               1
NONCURRENCES: Mgmt did not agree.                             NA
(Indicate finding/observation headings and numbers)
         1.
         2.
         3.
         4.

                                  RECOMMENDATIONS/SUGGESTIONS

NUMBER OF RECOMMENDATION/SUGGESTIONS:                                     0
NONCURRENCES: Mgmt did not agree.                                         NA
(Indicate recommendation/suggestion headings and numbers)
         1.
         2.
         3.
         4.

NUMBER OF CORRECTIVE ACTIONS TAKEN DURING AUDIT:                                   NA
TOTAL FUNDS PUT TO BETTER USE:                                                     NA




                                                 Restricted Information
Allegations of a Hostile Work Environment                               LM-LA-00-002
 in a New York Metro Area Post Office


TOTAL QUESTIONED COST:                                                NA
UNSUPPORTED COST INCLUDED IN QUESTIONED COST:                         NA

Report Summary:
Allegation of a Hostile Work Environment Caused by a Postmaster in Puerto Rico,
LM-LA-2000-00X, Date Issued xxx.

This allegation was received in correspondence provided to us by Congressman
John McHugh.

We determined that the Postmaster did physically and verbally threaten
employees. According to USPS and Inspection Service records, the Postmaster
was disciplined and received training to improve her behavior. The USPS sent
several Threat Assessment Teams to the Post Office, conducted a workplace
climate survey, interviewed Post Office employees, and was committed to
improving the workplace environment at the Post Office.

District management followed the USPS published zero tolerance policy
regarding violence and inappropriate behavior in the workplace. Employees
reported to the Inspection Service the incident of the Postmaster striking an
employee, and a report was provided to District Management, which then took
appropriate action. In recurring interpersonal incidents, management attempted
to resolve conflicts by sending outside parties to assess the workplace climate
and meet with employees. It appears that there are no longer threats of violence
at the Post Office, based on recent employee interviews.

This report contains no suggestions and requires no response from management.
(Project Number XXXXX).




                                        Restricted Information
